2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-169
JANE DOE,
Petitioner,

v.
IOWA,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the BRIEF OF A.tv1ICUS
CURIAE PUBLIC DEFENDER ASSOCIATION OF IOWA IN SUPPORT OF PETITIONER
JA.t"\TE DOE in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.l(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4098 words, excluding the parts that are exempted by Supreme
Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 9th day of September, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38662

